DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General

             Evaluation of the
     Federal Emergency Management
                 Agency’s
    Alternative Housing Pilot Program




OIG-07-39                       April 2007
                                                                    Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                    April 20, 2007



MEMORANDUM FOR:              R. David Paulison
                             Administrator
                             Federal Emergency Management Agency


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Evaluation of FEMA’s Alternative Housing Pilot Program


At the request of Congressman Bennie G. Thompson, we reviewed the Federal Emergency
Management Agency’s (FEMA) grant awards under the Alternative Housing Pilot Program (AHPP).
The Congressman requested we address a number of issues concerning the AHPP grant award
process.

Our objectives were to determine whether:

   •   The $400 million available for the program was appropriately allocated and hurricane-
       affected communities received proportionate shares of the available funds;
   •   The decisions of the AHPP awards panel and FEMA officials led to the funding of
       innovative and creative emergency housing solutions;
   •   The AHPP awards panel reached fair and balanced decisions;
   •   The AHPP panel review process was subject to the basic federal advisory committee
       requirements of openness and transparency; and
   •   There were any violations of law in the manner in which the AHPP grant project selections
       and awards were conducted.

We conducted this review under the authority of the Inspector General Act of 1978, as amended, and
according to Quality Standards for Inspections issued by the President's Council on Integrity and
Efficiency. Our review included interviews with FEMA officials, review of contract solicitation and
award documentation, and other procedures considered necessary under the circumstances.
                                               Results of Review

Of the $6 billion appropriated for Disaster Relief by Public Law 109-234,1 $400 million was
available to carry out Section 2403 of the Act. Section 2403 provided that costs for “alternative
housing pilot programs in the areas hardest hit by Hurricane Katrina and other hurricanes of the 2005
season” were eligible for funding under FEMA’s Individual Assistance Program. Furthermore, the
occupants of the housing developed with these funds are to be the victims from those areas hardest
hit by the 2005 hurricanes. The Senate Committee on Appropriations noted in a June 8, 2006, press
release that the $400 million was to fund a pilot study to determine “alternative sources of
emergency housing” that would be evaluated for providing a “better, safer and more cost effective
housing solution than the exclusive use of travel trailers.”2

FEMA officials developed and implemented a grant competition to “identify, develop, and evaluate
alternatives to and alternative forms of disaster housing.” The competition was limited to the state-
designated agencies of the Gulf Coast states, Alabama, Florida, Louisiana, Mississippi, and Texas.
By awarding competitive grants, FEMA officials sought to identify the best alternatives for housing
disaster victims. By restricting the competition to the five Gulf Coast states, FEMA officials sought
to comply with the Congressional intent that those areas hardest hit by Hurricane Katrina and the
2005 hurricanes receive the housing developed under these grants.

When the AHPP Guidance and Application Kit was issued by FEMA on September 15, 2006, the
designated agencies of the five Gulf Coast states were given 35 days to develop as many project
proposals as they wished to submit by an October 20, 2006, deadline. A total of 29 project proposals
were received, consisting of several from each of the eligible states. Some of the proposals
envisioned developing more than one type of innovative housing, but most were focused on a single
proposed type of unit.

After the proposals were received by FEMA and reviewed by a technical review committee, each of
the proposed projects were reviewed by an 11 member evaluation panel and were scored by each
panel member on 5 factors or criteria:

    1. The manner and extent to which the alternative housing solution improves upon the
       conditions characteristic of existing temporary housing and improves long term recovery;
    2. The extent to which the option can provide ready for occupancy (RFO) housing (obtained,
       transported, installed, repaired, constructed, etc.) within time frames and in quantities
       sufficient to meet disaster related needs under a range of scenarios, including sudden onset
       catastrophic disasters;
    3. Life cycle cost, including the cost to acquire, transport, install/construct/repair, and maintain
       during the period it is occupied by disaster victims;
    4. The capacity of the proposed alternative approach to be utilized in and adapted to a variety of
       site conditions and locations; and



1
  Emergency Supplemental Appropriations Act for Defense, the Global War on Terror, and Hurricane Recovery, 2006
(the Act).
2
  U.S. Senate Committee on Appropriations Press Release titled, “Senate, House Conferees Approve Final Supplemental
Spending Bill,” dated June 8, 2006.

                                                         2
   5. The extent to which local officials, local neighborhood associations, and other community
      organizations are part of or support the pilot program in the community in which it will
      occur.

The panel consisted of eight federal employees and three outside experts, including a state
government housing official, and architecture and construction experts from private industry. Seven
of the federal employees were from the Department of Homeland Security, mostly FEMA, and one
was from the Department of Housing and Urban Development.

The results of the panel’s review were an evaluation and scoring by each member of each of the
proposed projects and a consolidated ranking of all of the 29 project proposals. The total scores of
the 29 projects ranged from a low of 50 to a high of 184. There was one natural break in the scoring
totals with six of the proposals scoring less than 59 and 23 of the proposals scoring more than 103;
none of the proposals’ scores were between 59 and 103.

FEMA Gulf Coast Recovery officials reviewed the panel members’ evaluations and prepared a
decision paper for a DHS senior manager who, as the AHPP “primary selecting official” decided on
the projects to be funded and the amount of funding that each project would receive. In this decision
paper, the selecting official was provided with summary information on the project proposals and the
panel’s evaluations. The selecting official was also provided with three suggested options for
selecting and funding projects and the rationale supporting each of the options.

Option 1. “Fully fund the highest scoring projects, until money is exhausted.” This option would
have funded only the two highest-scoring project proposals and all of the available funds would have
gone to the State of Mississippi.

Option 2. “Optimize the number of housing alternatives funded within the competitive range.” This
option would have funded 10 project proposals. The increase in projects funded would have been
achieved by reducing the award amounts of those project proposals that had requested the largest
budgets, generally for the greatest numbers of units to be constructed. Under this option, the State of
Mississippi would have received 39.3% of the available funds, Louisiana 36.7%, Alabama 13.1%,
Texas, 10.9%, and Florida 0%.

Option 3. “Maximize the number of competitive states that receive funds.” This option funds five
of the six highest scoring project proposals so that each state having a proposal that scored in the top
six has at least one proposal funded. Under this option, each of the selected projects are funded at
85% of the requested budget amount, except for the Mississippi Park Model and Mississippi Cottage
proposal, which requested all $400 million of the appropriated funds and is instead funded at $275.4
million, or 68.9% of the budget amount requested. Under this option, Mississippi would receive
72.5% of the available funds, Louisiana 19.2%, Texas 4.3%, Alabama 4.0%, and Florida 0%.

The AHPP primary selecting official chose to implement the third option, as described above, from
the decision paper. Under this selected option, five projects will be funded:

   1. Mississippi’s “Green Mobile” project will be funded for up to $5,890,882 (85% of a
      requested $6,930,450). Under full funding of this proposal, 100 “green mobile” housing
      units would have been constructed of structural insulated panels.

                                                   3
   2. Mississippi’s “Park Model and Mississippi Cottage” project will be funded for up to
      $275,427,730 (68.9 % of a requested $400,000,000). Under full funding of this proposal,
      7,261 Park Model trailer units, similar to FEMA’s park model travel trailers but with more
      amenities and enhancements and capable of meeting many local building codes, and 1,933
      modular cottages would have been constructed.
   3. Louisiana’s Katrina Cottages and Carpet Cottages (a multi-family unit) project will be
      funded for up to $74,542,370 (85% of a requested $87,696,906). Under full funding of this
      proposal, a total of 475 housing units consisting of a mix of single-family cottages and multi-
      family “carpet cottages” would have been constructed.
   4. Texas’ Heston Group project will be funded for up to $16,471,725 (85% of a requested
      $19,378,500). Under full funding of this proposal, 250 units of pre-fabricated, panelized
      housing would have been constructed.
   5. Alabama’s City of Bayou La Batre project will be funded for up to $15,667,293 (85% of a
      requested $18,432,110). Under full funding of this proposal, 194 modular homes would have
      been constructed of cement fiber materials.

FEMA grants and program officials are now working with the state agencies whose project
proposals were selected to finalize the terms of the grants.

In response to the five issues Congressman Thompson raised concerning the AHPP grant award
process, our evaluation follows.

Issue #1 - Since the funds under these special AHPP grants will not be allocated on a state-by-state
basis or through a needs-based formula, could the communities hardest hit by the 2005 hurricanes
fail to receive a proportionate share of the $400 million appropriated for the program?

Congress authorized the use of the Individual Assistance program to fund alternative housing pilots
in areas hardest hit by Hurricane Katrina and the other hurricanes of the 2005 season. While
providing AHPP funds on a state-by-state basis or needs-based formula would have complied with
Section 2403 of the Act, neither would have been the most effective way of developing new and
innovative types of disaster housing. FEMA officials’ decision to conduct a grants competition
among the hurricane-affected states is a logical approach to implement a pilot program.

As a consequence of the FEMA decisions, the communities hardest hit by the 2005 hurricanes did
not receive proportionate shares of the $400 million appropriated for the program. The State of
Mississippi was awarded $281.3 million or 72.5% of the available funds, a share greater than its
proportion of the damages from the 2005 hurricanes. Consequently, the other Gulf States, which
have to make do with the remaining 27.5% of funds among them, did not receive funds
proportionate to the damages their communities sustained.

However, the cause of this lack of balance between needs and awards was not a result of the
competitive grant process or the work of the evaluation panel. Four of the five competing states
actually scored well in the panel’s evaluations and rankings. Officials in the State of Florida, the
only state that did not score well in the panel’s evaluations, attributed this ranking to what they
considered to be discrepancies between the announced purposes of the grants and the FEMA-
designed factors that were used in scoring the proposals - not to the competitive process or the work
of the evaluation panel. The award amounts that were decided upon and the decision to award

                                                  4
70.9% of the available funds to one project, the Mississippi Park Model and Mississippi Cottages
project, were solely the decision of the AHPP primary selecting official.

Had the FEMA guidance and application information to the applicant states requested that each
project proposal include a budget that showed the minimum amounts required to implement each
concept with some adequate-for-testing-and-evaluation number of units, such as 25 or 50, rather than
just allowing the applicants to submit a “wish-list” budget for each proposal, it would have been
easier for FEMA officials to compare the costs of each proposal. FEMA officials could then have
distributed the funds more proportionately among the competing states, while also more effectively
achieving the innovative disaster housing goals of the program.

Issue #2 - In the absence of pre-determined formulas or concrete and objective criteria to guide the
panel review process, will the panel decisions result in the funding of “innovative and creative”
housing solutions or of “ad hoc, discretionary, and subjective determinations?”

Any competitive grant process results in somewhat discretionary determinations and this particular
process has to be considered somewhat “ad hoc” because the FEMA Competitive Grant Standard
Operating Procedures are still in draft and have never been formally implemented. The panel review
process appeared thorough and consistent and evaluated and rated the proposed projects in a manner
that judged their innovation and creativity as well as the practicality and cost-effectiveness of the
submitted proposals. The panels also provided the FEMA officials with the information that would
be needed to effectively carry out the goals of the program. At least 11 of the project proposals were
given support for funding by the evaluation panel.

However, FEMA officials did not fund an optimum number of “innovative and creative” disaster
housing solutions because they awarded the vast majority of the available funds (70.9 %) to one
project – the Mississippi Park Model and Mississippi Cottage proposal. This decision did not allow
ample funds for the remaining projects that qualified for funding. Had the selecting official chosen
the second option presented in the decision paper, which would have funded 10 of the top-scoring 11
project proposals (excluding one that was mostly a duplicate of another project), the AHPP grant
funds would be much more effective in exploring and testing “innovative and creative” alternative
solutions to disaster housing. Instead, the selecting official chose the option that expended all of the
available funds on only five project proposals.

The official who prepared the decision paper for the AHPP senior manager told us that he agreed
with the selecting official’s decision to fund only the five projects because he believes that in a
competitive grant process most of the funds should go to the top-scoring competitors. However, we
are not aware of any standard competitive grant procedure that prevents funding as many qualified
competing proposals as possible, and the draft FEMA Competitive Grant Standard Operating
Procedures do not contain such a requirement or guidance.

In addition, FEMA officials might have been able to solicit and fund more innovative and creative
disaster housing solutions had they allowed applicants more time. FEMA allowed applicants only
35 days to submit completed grant proposals. Given the amount of time necessary to complete the
paperwork required for a grant submittal, little time was left for developing innovative and creative
ideas. If all of the competing states had been given more than 35 days to develop submittals, the
states may well have come up with more and better concepts for disaster housing that could have

                                                   5
been funded. Several of the competing states indicated that more time was needed to prepare
adequate proposals. FEMA officials told us that such time for developing new and innovative
concepts was not needed because states had already spent a lot of time and effort developing such
housing concepts. We do not doubt that such may be true for the states of Louisiana and
Mississippi, which have had extensive numbers of panels and discussion groups related to these
issues because of the extensive damage they suffered. However, the other three states eligible for the
grants competition may not have had as much focus on developing and discussing such alternatives,
and were probably placed at a competitive disadvantage by the tight time frames of the proposal
submittal requirements.

Issue #3 - Is the review panel as constituted able to reach fair and balanced decisions, unimpeded by
real or apparent conflicts of interest?

We reviewed all of the documentation that FEMA provided concerning the operation of the
evaluation review panel. The panel conducted extensive reviews and evaluations of each project
proposal. We did not note any lack of fairness or balance. Although the majority of panel members
were FEMA employees, there was no obvious bias in how they conducted their reviews. The
reviews were possibly unbalanced in that every factor was given the same weight as all of the other
factors rather than being “weighted” as is often the case. It is unusual when some evaluation factors
are not considered to be more important than other factors. FEMA officials made the decision for
each factor to have the same weight, not the panel members. The panel members did complete
conflict of interest forms, and we did not detect any noticeable conflicts of interest in our reviews of
the panel’s evaluations.

Issue #4 - Will the panel review process meet the basic requirements of openness and transparency
required of all federal advisory committees? Specifically, will the panel review process comply with
the requirements of the Federal Advisory Committee Act (FACA) for openness, public access to
records, and fairness?

The FEMA Counsel’s office concluded that the FACA requirements did not apply to this panel
review process because FACA only applies when the agency establishes a committee with members
who are not federal employees to obtain consensus advice or recommendations. FEMA officials
considered the panel members to be providing individual recommendations and advice to the
selecting official for the award of potential grant recipients. We reviewed the FEMA position
concerning FACA compliance and concluded that it was justified. In addition, the panel process was
not the key process that determined how many projects would be funded, what projects would be
funded, or how much funding each of the selected projects would receive. Those decisions were the
sole purview of the AHPP selecting official. More openness or transparency in the panel process
would not necessarily have had any noticeable effect upon the FEMA decision-making process.

Issue #5 - Were any violations of law found in the conduct of the AHPP grant project selections and
awards?

We did not find any violations of law in the AHPP grant process, although the grant awards could
have been made to fund and assess a greater variety of alternative disaster housing options, and
while doing so would have resulted in a more proportionate distribution of AHPP funds to the states.
Moreover, the projects that have been funded should expand the alternatives available for disaster

                                                   6
housing in the future and should provide improved interim housing for many residents of the
hurricane-stricken areas of the Gulf Coast. FEMA officials said they intend to closely monitor the
funded projects to ensure these projects are carried out in compliance with applicable laws and the
terms of the AHPP grants.

We discussed the report with FEMA management and provided them with a copy. However, this
report contained no recommendations and does not require a formal response.

Should you have any questions, please call me, or a member of your staff may contact Matt Jadacki,
Deputy Inspector General for Disaster Assistance Oversight, at (202) 254-4100.

cc: Audit Liaison, DHS
    Audit Liaison, FEMA




                                                  7
Appendix ?
Major Contributors to this Report




   Additional Information and Copies

   To obtain additional copies of this report, call the Office of Inspector General (OIG)
   at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
   www.dhs.gov/oig.

   OIG Hotline

   To report alleged fraud, waste, abuse or mismanagement, or any other kind of
   criminal misconduct relative to department programs or operations, call the OIG
   Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL STOP
   2600, Attention: Office of Investigations – Hotline, 245 Murray Drive, SW,
   Building 410, Washington, DC 20528; fax the complaint to (202) 254-4292; or
   email DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each
   writer and caller.
